<html>
<title> - AFGHANISTAN STABILIZATION AND RECONSTRUCTION: A STATUS REPORT</title>
<body><pre>[Senate Hearing 108-460]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-460

      AFGHANISTAN STABILIZATION AND RECONSTRUCTION: A STATUS REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 27, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



93-763              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Jones, Gen. James L., USMC, Supreme Allied Commander Europe 
  (SACEUR), Supreme Headquarters, Allied Powers Europe, Mons, 
  Belgium........................................................     3
    Prepared statement...........................................     6
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Taylor, Hon. William B., Coordinator for Afghanistan, U.S. 
  Department of State, Washington, DC............................     8
    Prepared statement...........................................    10

                                 (iii)

  

 
     AFGHANISTAN STABILIZATION AND RECONSTRUCTION: A STATUS REPORT

                              ----------                              


                       TUESDAY, JANUARY 27, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Feingold, Boxer, Bill 
Nelson, and Rockefeller.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    The Senate Foreign Relations Committee is pleased to 
welcome General James Jones, Supreme Allied Commander of 
Europe, and Ambassador William B. Taylor, Coordinator for 
Afghanistan for the Department of State, to assess the 
international effort to stabilize and to rebuild Afghanistan.
    The new Afghan nation is in a fragile state of development, 
but there are many reasons to be optimistic about its future. 
The Afghan people are experiencing new freedoms, and families 
are being reunited as refugees return from neighboring 
Pakistan, Iran, and elsewhere. The new constitution, approved 
January 4, 2004, by the Constitutional Loya Jirga, provides all 
citizens of Afghanistan, men and women, equal rights under the 
law. Afghan women are going back to school and back to the 
workplace; they also are participating in the political 
process. The Constitution reserves 25 percent of the seats of 
the new Lower House of Parliament for women, and the new Afghan 
Government cabinet includes two women.
    Afghanistan is experiencing important successes in 
education, healthcare, and the development of a market economy. 
New businesses are being established with grants and loans from 
the United States and the international community. The 
completion of the initial stages at the Kabul-Kandahar road is 
another sign of progress that brings hope to those who are 
dedicated to rebuilding Afghanistan.
    Solidifying and expanding these successes, however, depends 
on making further progress on security. Southern and eastern 
Afghanistan, in particular, are dangerous. The Taliban has been 
active on the Pakistan-Afghan border, and attacks on United 
States and Afghan forces, as well as on United Nations and non-
governmental organizational personnel, are generating fear. If 
security is not achieved, international aid workers and others 
critical to the reconstruction of Afghanistan will not be able 
to function.
    In addition, Afghanistan's Presidential elections are 
scheduled to be held in June 2004, followed by parliamentary 
elections a year later. Yet less than half a million voters 
have been registered, to date, out of an estimated ten and a 
half million. The United Nations Assistance Mission is moving 
to register voters as quickly as possible. We must overcome 
security and logistical deficiencies so that free and fair 
elections can take place on time.
    With this in mind, our committee is intensely interested in 
the progress of the International Security Assistance Force, 
ISAF. The NATO and United Nations decision in late 2003 to 
expand ISAF outside of Kabul was an important step toward 
improved security.
    The new Secretary General of NATO, Jaap de Hoop Scheffer, 
declared last week that Afghanistan is the number-one priority 
of the Alliance. The United States is grateful for the wide 
participation of our allies in the ISAF, which includes forces 
from 30 contributing nations. We want ISAF to be a multilateral 
success story that demonstrates the potential for NATO 
operations and international cooperation in post-conflict 
situations. But for ISAF to be considered a success, members of 
the Alliance must improve their commitment to the operation. 
ISAF deployments and missions have been delayed or downsized by 
staffing and equipment shortages.
    Eight Provincial Reconstruction Teams have been established 
outside Kabul. This is a step forward for security, but more 
teams are needed. The current teams must have the capability to 
operate extensively outside their bases. Only one of these 
teams, the German force in Kunduz, was established under the 
auspices of NATO. Of the remaining seven, five are run by the 
United States, one by the British, and one by New Zealand.
    So far, the ISAF has only deployed 5,500 troops to 
Afghanistan, most of which remain in Kabul. Securing the 
country will require many more.
    I was concerned, 2 months ago when I read statements by 
Major General Andrew Leslie, a Canadian who serves as Deputy 
Commander of ISAF. General Leslie stated, ``There are 1.4 
million soldiers in NATO. Where are they? Why are so few 
countries stepping up to the plate? The left hand has made the 
commitment, but the right hand is not ponying up,'' from 
General Leslie. He went on to say, ``The status quo will only 
lead to failure.''
    Numerous other observers also have expressed concern about 
the pace and scope of ISAF's security efforts. Our allies must 
back up their ISAF commitments with sufficient resources, 
troops, organization, and political will.
    Last October, President Bush urged Congress to pass the 
Emergency Wartime Supplemental Appropriations Act to accelerate 
and to expand our stabilization and reconstruction efforts in 
Afghanistan. The Congress responded, providing more than what 
was requested. A total of $1.6 billion in American assistance 
is available for Afghanistan in fiscal year 2004. The 
administration reportedly will seek an additional $1 billion in 
assistance for Afghanistan in the fiscal year 2005 budget 
request.
    This committee has been supportive of funding for 
Afghanistan, and we are anxious to hear from our witnesses 
about whether these resources are adequate and whether they can 
be used efficiently and effectively to stabilize and rebuild 
the country.
    Capturing Taliban and al-Qaeda terrorists and destroying 
their infrastructure are only a part of what is required to win 
the fight against terrorism in Afghanistan. The United States 
and the international community must not only deny the 
terrorists a base of operations, they must expose the 
destructiveness of the terrorist ideology and their violent 
methods. Every day that Afghanistan moves closer to peace, 
freedom, tolerance, and economic viability, the terrorists are 
weakened.
    Our witnesses today possess extraordinary expertise 
concerning our operations in Afghanistan. They provide us with 
an excellent opportunity to sharpen our understanding of the 
situation and to exercise the committee's oversight role 
related to Afghanistan.
    We welcome the witnesses, and we look forward to their 
testimony.
    Now, when Senator Biden arrives, he will be recognized for 
an opening statement. We welcome Senator Hagel and Senator 
Nelson this morning.
    And I call now on you, General Jones, for your testimony.

    STATEMENT OF GEN. JAMES L. JONES, USMC, SUPREME ALLIED 
COMMANDER EUROPE (SACEUR), SUPREME HEADQUARTERS, ALLIED POWERS 
                     EUROPE, MONS, BELGIUM

    General Jones. Mr. Chairman and members of the committee, 
it's a great honor and a very special pleasure to be with you 
today to discuss NATO's work and its mission in Afghanistan.
    I'm particularly pleased to be reunited with my friend and 
colleague of many years, Ambassador Taylor. We have known each 
other for almost 20 years now, I guess, Bill. It's a great 
pleasure to be here, side by side, on this very special day.
    Mr. Chairman, if you will allow me, I'd like to just take a 
few minutes to set the context of NATO's involvement in 
Afghanistan by--since this is the first time I've had the 
pleasure of appearing before your committee--to say a few 
things about NATO, in general, and then I'll get more specific 
with regard to Afghanistan.
    As we all know, NATO is the transatlantic link that binds 
Europe and North America in a truly unique and historical 
security alliance. It remains the preeminent security alliance 
in the world today. And it would not be an overstatement to say 
that NATO is currently undergoing the most significant 
transformation in its 50-year history.
    Very simply put, the Alliance is transforming from an 
organization whose primary mission was the territorial defense 
of Western Europe to one that is more agile, more capable, and 
more able to act proactively against the numerous transnational 
threats inherent in today's international security environment.
    In making this historical transformation, NATO is taking 
steps to exploit emerging technologies, to incorporate new 
operational concepts, to implement dramatic and far-reaching 
institutional reforms, and to adopt modern business practices 
in the use of its resources.
    Today, the Alliance is focused on security challenges in 
areas of instability well beyond its traditional area of 
interest, and is undertaking operations that are global in 
scale for the first time.
    The Alliance has conducted six highly successful operations 
just this past year. In Bosnia and Herzegovina, the 
Stabilization Force made significant progress toward completing 
its military tasks under the Dayton Accords. NATO's Kosovo 
Force, or KFOR, continues to provide security in the region and 
to assist the United Nations interim administration in Kosovo. 
We have supported the very successful Operation Concordia in 
the Former Yugoslav Republic of Macedonia; conducted the first 
Article IV operation during Operation DISPLAY DETERRENCE, when 
the Alliance deployed NATO airborne early warning aircraft to 
Turkey; and continues maritime interdiction operations in the 
Mediterranean with Operation ACTIVE ENDEAVOR, which is 
contributing significantly to the global war on terrorism.
    Perhaps the most far-reaching operation that NATO assumed 
this past year was its assumption of the international 
community's mission in Afghanistan, known as the International 
Security and Assistance Force, or ISAF.
    ISAF was created by United Nations Security Council 
Resolution 1336, in December 2001, to assist the recently 
formed Afghan Transitional Authority, ATA, in the maintenance 
and security of Kabul and the surrounding areas so that the 
Transitional Authority and U.N. personnel could operate in a 
secure environment.
    ISAF was initially built around the lead-nation concept. 
The first mission in Kabul was led by the United Kingdom--it 
was known as ISAF I; followed by Turkey, ISAF II; Germany and 
the Netherlands, ISAF III. And NATO first became involved with 
ISAF in response to a request from Germany and the Netherlands 
for planning and support of ISAF III. In August 2003, NATO, in 
effect, became the lead for all future ISAF missions when it 
took command through Headquarters Allied Forces North in Kabul, 
Afghanistan. The NATO command in Kabul currently comprises 17 
NATO nations and 14 non-NATO nations consisting of 
approximately 6,000 personnel.
    Today, ISAF and the Afghan National Army routinely conduct 
joint patrols in the streets of Kabul, projecting a positive 
image of security, teamwork, and partnership. In addition, 
there are hundreds of civil-military projects dedicated to 
local administration, infrastructure, reconstruction, 
rehabilitations of schools and medical facilities, restoration 
of water supply, health, education, and agricultural technical 
assistance. All instill a new sense of hope among the 
population in and around Kabul.
    ISAF plays an important role in the international 
community's long-term reconstruction efforts, especially in 
support of the G8's Security Sector Reform, SSR, efforts. In 
order to achieve SSR, the G8 nations have identified five 
pillars they believe essential to this effort. These pillars 
include demobilization, demilitarization, and reintegration, 
otherwise known as DDR--this is led by Japan; judicial reform, 
led by Italy; counter-narcotics, led by the United Kingdom; 
police training, led by Germany, and support to the training of 
the Afghan National Army, led by the United States.
    Key to these efforts is the Provincial Reconstruction Team 
concept, otherwise known as PRTs. PRTs fundamentally have two 
components. The civilian element, composed of members of the 
Afghan Transition Authority, U.N. personnel and non-
governmental organization, and they focus on implementing the 
SSR process. The second element is a military element, which 
provides the security that helps set the condition allowing the 
civilian element to achieve its objectives.
    There are currently nine active PRTs in Afghanistan: the 
German-led PRT, which is under ISAF, as of January of this 
year; and eight PRTs under the Combined Joint Task Force-180, 
which is a U.S. task force; one of these eight PRTs is British 
led, one is led by New Zealand, and the other six, by the 
United States.
    On the 30th of September 2003, ISAF assumed the operational 
control of the German-led PRT in the Kunduz province. The 
assumption and control of this PRT is to be seen as a pilot 
program for NATO. It is believed that the expansion of PRTs 
throughout the provinces will play an essential role in 
allowing Afghanistan to attain a self-sustaining level of 
security, stability, and reconstruction.
    The North Atlantic Council has asked the Supreme 
Headquarters, Allied Powers of Europe to develop a plan for the 
expansion of the ISAF mission. This work is currently underway 
at my headquarters in SHAPE. And while we have not yet selected 
an exact framework for how ISAF will expand, I can tell you the 
process will likely be one built around a graduated-phased 
approach tiered to a properly resourced and capability-based 
force. Specifically, our instructions from the North Atlantic 
Council direct me to develop a plan for expanding the ISAF 
mission that can support up to five Provincial Reconstruction 
Teams. We will also include the ability to expand beyond the 
directed five PRTs if the Alliance directs us to do so. Key to 
this planning process are the lessons learned from the PRTs 
currently in effect and operating in Afghanistan.
    General John Abizaid, who is responsible for Operation 
ENDURING FREEDOM in Afghanistan, and his Central Command 
personnel have been immensely helpful in our ability to conduct 
the current ISAF mission, and equally supportive of our ongoing 
planning efforts to expand ISAF. In fact, there is a 2-day ISAF 
planning conference at my headquarters in SHAPE that concludes 
today, and CENTCOM planners, from its headquarters in 
Afghanistan, are there in attendance. This cooperative 
environment in current operations and in the planning of future 
missions is really the cornerstone of ISAF expansion. NATO's 
ability to expand the ISAF mission will rely on the proper 
construction and the operation of Provincial Reconstruction 
Teams.
    The PRT concept will enable ISAF to facilitate and create 
an environment that allows for reconstruction and nation-
building activities to proceed. Each PRT will be designed to 
meet specific requirements relative to security, terrain and 
socioeconomic condition in its region. In this way, the 
properly sized, efficient military PRT element, working in 
close cooperation and synchronized with a civilian element, can 
have a significant effect and influence on a considerable 
geographic portion of Afghanistan.
    We intend to use PRTs as the platform for Security Sector 
Reform and the activities of the United Nations and the G8 SSR 
lead nations in order to build Afghan security capabilities and 
further reinforce the community perceptions of effective, 
reliable, and accountable governance in the provinces.
    Mr. Chairman, I have spoken about the NATO process of 
deciding how to work in Afghanistan because this mission is a 
clear demonstration of NATO's new missions in the new century. 
There is a high level of political ambition among NATO nations 
to succeed in these missions. But they, as ISAF shows, are 
complex, expensive, and demanding. We need to proceed with 
care, but also with resolve, since we cannot fail, either as a 
nation or as an alliance. Afghanistan is the current test, but 
there will be others. With your support and that of your 
committee and other nations, I am confident that we will be 
successful.
    And I thank you for the opportunity to appear before you 
today.
    [The prepared statement of General Jones follows:]

            Prepared Statement of Gen. James L. Jones, USMC

    The North Atlantic Treaty Organization (NATO) is the transatlantic 
link that binds Europe and North America in a unique defense and 
security alliance. It remains the preeminent security alliance in the 
world. It would not be an overstatement to say that NATO is currently 
undergoing the most significant transformation in its over 5O-year 
history. Simply put--the Alliance is transforming from an organization 
whose primary mission was the territorial defense of Western Europe to 
one that is more agile, capable, and able to act proactively against 
the numerous trans-national threats inherent in today's international 
security environment. In making this transformation, NATO is taking 
steps to exploit emerging technologies, to incorporate new operational 
concepts, to implement institutional reforms, and to adopt modern 
business practices.
    Today, the Alliance is focused on security challenges and areas of 
instability well beyond its traditional area of interest, and is 
undertaking operations that are global in scale. The Alliance conducted 
six highly successful operations last year. In Bosnia Herzegovina, the 
Stabilization Force (SFOR) made significant progress towards completing 
its tasks under the Dayton Accords; NATO's Kosovo Force (KFOR) 
continues to provide security in the region, and to assist the United 
Nations Interim Administration in Kosovo; supported the very successful 
Operation CONCORDIA in The Former Yugoslav Republic of Macedonia; 
conducted the first Article IV operation during DISPLAY DETERRENCE when 
the Alliance deployed NATO Airborne Early Warning aircraft to Turkey; 
and continues maritime interdiction operations in the Mediterranean Sea 
with ACTIVE ENDEAVOR which is contributing significantly to the GWOT. 
Perhaps the most far-reaching operation that NATO assumed this past 
year was its assumption of the international community's mission in 
Afghanistan, known as the International Security and Assistance Force 
or ISAF.
    ISAF was created by United Nations Security Council Resolution 
(UNSCR) 1336 in December 2001, to assist the recently formed Afghan 
Transitional Authority (TA) in the maintenance and security of Kabul 
and its surrounding area so that the Afghan TA and UN personnel could 
operate in a secure environment.
    ISAF was initially constituted on a ``lead nation'' concept. The 
first mission in Kabul was led by the United Kingdom (ISAF I) followed 
by Turkey (ISAF II), Germany and the Netherlands (ISAF Ill). NATO first 
became involved with ISAF in response to a request from Germany and the 
Netherlands for planning and support for ISAF Ill. In August 2003, NATO 
became the ``lead'' for all future ISAF missions when it took command 
through Headquarters Allied Forces North (AFNORTH) in Kabul, 
Afghanistan. The NATO command in Kabul currently comprises 17 NATO 
nations and 14 non-NATO nations consisting of over 6,000 personnel.
    Today, ISAF and the Afghan National Army routinely conduct joint 
patrols in the streets of Kabul, projecting a positive image of 
security, teamwork and partnership. In addition, hundreds of civil-
military projects dedicated to local administration, infrastructure 
reconstruction, rehabilitation of schools and medical facilities, 
restoration of the water supply, health, education, and agricultural 
technical assistance--all instill a new sense of hope among the 
civilian population in and around Kabul.
    ISAF plays an important role in the international communities' 
long-term reconstruction efforts, especially in support of the G8's 
Security Sector Reform (SSR) efforts. In order to achieve SSR, the G8 
nations have identified five pillars they believe essential to this 
effort. These pillars include: Demobilization, Demilitarization, and 
Reintegration or DDR, led by Japan; Judicial Reform, led by Italy; 
Counter-Narcotics, led by the United Kingdom; Police Training, led by 
Germany; and support to the training of the Afghan National Army, led 
by the United States.
    Key to the SSR effort is the Provincial Reconstruction Teams or 
PRTs. PRTs have two components; The civilian element, composed of 
members of the Afghan Transition Authority, UN personnel and Non 
Governmental Organizations (NGOs), focuses on implementing the SSR 
process. Second, the military element provides the security that helps 
set the conditions allowing for the civilian element to achieve its 
objectives. There are currently nine active PRTs in Afghanistan: the 
German-led PRT under ISAF command; and eight PRTs under Combined Joint 
Task Force-180: one British led, one New Zealand led, and six U.S. led.
    On 30 December 2003, ISAF assumed operational control of the German 
led PRT in the Kunduz province. The assumption of control of this PRT 
is seen as a pilot program for NATO. It is believed that the expansion 
of PRT's throughout the provinces will play an essential role in 
allowing Afghanistan to attain a self-sustaining level of security, 
stability and reconstruction.
    The North Atlantic Council has asked SHAPE Headquarters to develop 
a plan for the expansion of the ISAF mission. This work is currently 
underway at SHAPE, and while we have not yet selected an exact 
framework for how ISAF will expand, I can tell you the process will 
likely be one built around a graduated-phased approach tied to a 
properly resourced, and capability-based force. Specifically, our 
instructions from the North Atlantic Council direct SHAPE to develop a 
plan for expanding the ISAF mission that can support up to five PRTs. 
We will also include the ability to expand beyond the directed five 
PRTs if the Alliance decides to do so. Key to our planning process is 
the lessons learned from the PRTs currently operating in Afghanistan.
    General John Abizaid, who is responsible for Operation Enduring 
Freedom, and his Central Command personnel in Afghanistan have been 
immensely helpful in our ability to conduct the current ISAF mission, 
and equally supportive of our ongoing planning efforts to expand ISAF. 
In fact, there is a two-day ISAF planning conference at SHAPE that 
concludes today, and CENTCOM planners from its headquarters in 
Afghanistan are in attendance. This cooperative environment in current 
operations and in the planning of future missions is the cornerstone to 
ISAF's expansion. NATO's ability to expand the ISAF mission will rely 
on the proper construction and operation of PRTs.
    The PRT concept will enable ISAF to facilitate an environment that 
allows for reconstruction and nation-building activities to proceed. 
Each PRT will be designed to meet specific requirements relative to 
security, terrain and socio-economic conditions in its region. In this 
way, a correctly sized, efficient military PRT element working in close 
cooperation and synchronized with a civilian element, can have a 
significant influence and effect on a considerable geographic area of 
Afghanistan. We intend to use PRTs as the platform for Security Sector 
Reform activities of the United Nations and the G8 SSR lead nations in 
order to build Afghan security capacities and further reinforce the 
community perceptions of effective, reliable and accountable governance 
in the provinces.
    Mr. Chairman, I have spoken about the NATO process of deciding how 
to work in Afghanistan because this mission is a clear demonstration of 
NATO's new missions in the new century. There is a high level of 
political ambition among the NATO nations to succeed in these missions. 
But they, as ISAF shows, are complex, expensive, and demanding. We need 
to proceed with care but also with resolve, since we cannot fail, 
either as a nation or an alliance. Afghanistan is the current test, but 
there will be others. With your support, and that of your counterparts 
in the other nations, I am confident we will succeed.
    Mr. Chairman I am prepared to answer your questions.

    The Chairman. Thank you very much, General Jones, for your 
testimony.
    The Chair calls now on Ambassador William Taylor.

   STATEMENT OF HON. WILLIAM B. TAYLOR JR., COORDINATOR FOR 
     AFGHANISTAN, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Taylor. Thank you, Mr. Chairman. Good to be 
back, sir. I was here in front of you a couple of months ago, 
and so it's an opportunity to give you an update. There have 
been some things that have happened in Afghanistan that have 
made the glass a little bit fuller. It's not quite full, you 
won't be surprised to know.
    There are hurdles that we need to accomplish, to get over. 
General Jones has indicated the challenges, in particular on 
the security side, which, as he indicated and as you indicated, 
Mr. Chairman, make the other work possible.
    Mr. Chairman, if I can just summarize my statement and 
comment on some of the items that you raised in your opening 
statement, I would like to just draw the attention to two parts 
of what we're doing in Afghanistan.
    The Chairman. Very well. The statement will be published in 
full in the record.
    Ambassador Taylor. Thank you, sir.
    You mentioned, and in my statement I talk about, the 
stabilization phase, which we are in in the political side, in 
the economic side, as well as in the security side. And then 
you also mentioned solidifying these programs. And I talked 
about that in my statement, in terms of institutionalizing that 
progress so that it can be sustained over time. We have to do 
some of the institutionalization, the solidifying, at the same 
time we are working on the stabilization. And the stabilization 
moves into a solidifying program in each of these areas--in 
political, economic, and security--and will take some time.
    You mentioned, Mr. Chairman, that there is a request, or 
will be a formal request, for additional funds for our work in 
Afghanistan that will come up in the President's budget next 
week. We urge you to take a serious look at this and fully 
support it. And if there's anything that we can do to answer 
questions about that, we're very eager to do that.
    If I can just say just a little bit on the two pieces of--
that is, the stabilization work and the solidification, in your 
term, or the institutionalization that I have. We began the 
stabilization work on the political side as soon as the Taliban 
and al-Qaeda were pushed out of Afghanistan at the end of 2001. 
The Bonn Agreement, the Emergency Loya Jirga, were elements of 
that stabilization. And, as you indicated, Mr. Chairman, the 
Constitution that was just agreed--actually signed yesterday, 
but agreed on the 4th of January by the 502 members of the loya 
jirga--is a good first start. It, however, will only be good if 
it is fully implemented. I mean, there are some--as you 
indicated, some good things in that. This is a good 
Constitution. It's a good piece of paper. But it will be more 
than a piece of paper only if the rights, if the 
responsibilities, if the organization that are included in that 
document are actually implemented. And we will be pushing, but 
this is going to be an important caveat, I believe.
    The election is the next big phase--again, that you 
indicated earlier--and there are big challenges to accomplish 
that election by June. The constitution requires the Government 
of Afghanistan and the U.N. and international community to make 
every effort to have the two elections--that is the 
Presidential and parliamentary elections--simultaneous, at the 
same time, next summer. That will be hard, but that is what the 
Constitution calls for at the outset. Now, if it's impossible, 
practically impossible, then there will be other decisions that 
will have to be made.
    On the economic reconstruction, Mr. Chairman, again, we 
have a stabilization phase and a solidification phase--again, 
in your words. To stabilize the economy, we and the 
international community have put in a large amount of 
assistance to jumpstart the economy. The economy actually is 
jumpstarted. The IMF reports that it's 30 percent growth last 
year, 20 percent growth this year--from a very, very low base, 
I hasten to say--but that's a good start for economic 
stabilization.
    Also in that economic stabilization, I would put the road 
that you mentioned. We completed--since we last spoke, since I 
was last up here in front of your committee, USAID completed 
the first layer of asphalt from Kabul to Kandahar, a major 
accomplishment that many people said could not be done. But you 
asked, in October, whether it was done, and I was fairly 
confident that it was, and we were able to accomplish that.
    Those are good first starts, but, as you indicated, there's 
more to it. There's the solidification, there's the 
solidification and institutionalization of economic growth that 
needs to take place following the stabilization. And those, 
we're talking about the banking laws, and we're talking about 
dispute settlement resolutions, mechanisms. We're talking about 
mechanisms that will allow the private sector, both in 
Afghanistan and the international private sector, to invest in 
the economy and make it move. That's where the real economic 
growth is going to come through.
    Mr. Chairman, the last is security, and General Jones has 
given an excellent overview, in particular focusing on the 
PRTs. But, again, the stabilization--which is still ongoing, 
there's a lot to be done to push back on the Taliban, who are 
coming across the border still, are attacking unarmed 
assistance workers, attacking U.N. workers, attacking engineers 
on that road that you mentioned. That job is clearly not done. 
There are problems with narcotics, counter-narcotics work needs 
to be focused. The warlords and other strongmen in the area, 
who continue to harass the people of Afghanistan. I would put 
all of these in the area of stabilization, before we get to the 
institutionalization.
    We are making some progress. We're starting on the 
institutionalization of the security sector. General Jones 
mentioned both the police and the Afghan National Army, 
training and institutionalization of two professional forces 
that are complementary, and this is going reasonably well. We 
are, again, facing some hurdles, facing some problems in both 
of those, but we are making progress. I don't want to, again, 
be too rosy about the overall effort, but I think, in general, 
we are going in the right direction.
    Mr. Chairman, the President, last week, said that ``America 
is honored to be the friend of Afghanistan,'' and this is 
clearly the case, and I think he spoke for the country. As 
their friend, as the friend of Afghanistan, we need to assure 
the Afghan people, and other people who are watching what we do 
in Afghanistan, that this time we will see the mission through. 
We didn't before, and we need to assure that we do this time.
    And I look forward to your questions, Mr. Chairman. Thank 
you.
    [The prepared statement of Ambassador Taylor follows:]

           Prepared Statement of Hon. William B. Taylor, Jr.

    Mr. Chairman, thank you for this opportunity to update the 
committee on our program to accelerate reconstruction in Afghanistan.
    Our objective in Afghanistan is clear: to help the Afghan people 
build a responsible, self-sustaining market democracy that will never 
again harbor terrorists. Our national security requires that we stay 
the course until we and the Afghan people have achieved this goal.
    When I addressed the committee last October I offered my frank 
assessment of the hurdles we face as we work toward that objective but 
also of the progress we are making. At that time the glass was by no 
means full, but it was far from empty.
    I am pleased to report today that while many hurdles remain, the 
glass is measurably fuller today than it was four months ago. 
Congressional support has been crucial. The supplemental funding 
approved by Congress last fall is helping to underwrite a far-reaching 
program to accelerate the reconstruction of Afghanistan--and that 
effort is already bearing fruit. The FY04 appropriation that you passed 
last week will also help. I seek your full support for the FY05 request 
that the President will send up shortly.
    Mr. Chairman, we can usefully think of our effort in Afghanistan in 
two overlapping phases: stabilization and institutionalization. In each 
of the three tracks of reconstruction--political, economic and 
security--we need to stabilize the sector and then build lasting 
institutions. These institutions take time to build but are crucial if 
the Afghan people are to build a self-sustaining market democracy.

                        POLITICAL RECONSTRUCTION

    The Bonn Agreement of December 2001 and the Emergency Loya Jirga in 
June 2002 began to stabilize governance in the immediate aftermath of 
the victory over the Taliban. Hamid Karzai was selected to head the 
transitional government and a cabinet was drawn from the many factions 
of Afghan society. The Constitutional Loya Jirga that finished up on 
January 4 represents a huge step forward to institutionalize political 
progress toward an Afghan democracy--part of our objective.
    The new constitution took shape through a representative process. 
It was drafted by a nine-member committee of Afghans last winter, 
reviewed by a 35-member Afghan commission starting last March, revised 
following nationwide public consultations that began in June, and 
ultimately ratified by 502 Afghan delegates to the Constitutional Loya 
Jirga--an event that was beamed live on TV and radio to Afghan 
households. About 20 percent of the delegates were women, and the 
debates included hard bargaining on clauses relating to parliamentary 
powers and the rights of minorities, including official languages.
    At the end of the day, the Constitutional Loya Jirga approved the 
first nationally mandated constitution in 40 years--a constitution that 
Afghans can be proud of and that can provide a solid framework on which 
to build the functioning elements of a stable democracy.
    The next big step toward institutionalizing democracy is the 
election scheduled for this summer. Registration is underway, with the 
UN reporting that some 500,000 voters--out of an estimated 10.5 
million--have been registered to date. The UN is already behind in 
registration--a million and a half voters should have been registered 
by now. The Afghan government, the UN, the international community and 
the U.S. government are now straining to pick up the pace of 
registration so that the election can take place in June.

                        ECONOMIC RECONSTRUCTION

    To stabilize the economy, the international community has provided 
large amounts of foreign aid to jump start economic growth and begin to 
rebuild economic infrastructure. The Afghan economy grew at 30 percent 
last year. and is growing at 20 percent this year--from an exceedingly 
low base. Since we last spoke in October, USAID completed a layer of 
pavement on the Kabul-to-Kandahar road, allowing vehicles to travel 
between the two cities in less than six hours. Survey and design work 
is already underway for the Kandahar-Herat stretch of the road and the 
topographic surveys of that section are 80 percent complete.
    Also in December Afghanistan completed repair work on the Salang 
Tunnel, a critical mountain pass linking Kabul to its northern 
provinces.
    It would be hard to overstate the significance of new roads in 
drawing the country together politically and economically and in 
offering Afghans a visible sign of progress and hope. Certainly the 
Kabul-Kandahar-Herat ring road has been a major priority for President 
Karzai, so much so that he escorted a contingent of delegates from the 
Constitutional Loya Jirga to the ribbon cutting ceremony for the Kabul-
Kandahar leg.
    Over the last three months the impact of U.S.-funded irrigation 
projects has almost tripled, going from coverage of about 55,000 
hectares to almost 150,000 hectares.
    These projects have begun to stabilize the Afghan economy, but 
sustained economic growth requires massive, private-sector investment, 
investment that will not come until the economic foundations of a 
market economy are put in place. Investment law, a commercial code, 
banking laws, commercial standards, dispute settlement mechanisms--
these establish the economic and regulatory framework necessary for 
real growth. Some are in place, but sustained effort to create the 
investment climate capable of attracting foreign and domestic investors 
will be necessary for years to come.

                                SECURITY

    In the security sector, stabilization requires the continued 
pursuit of terrorists who oppose and threaten the Karzai government, 
the steady removal of local strongmen who harass the Afghan people, the 
disarming of local militias and the firm crackdown on narcotics 
cultivation and trafficking. We have made progress--disarmament is 
picking up momentum--but stabilization in the security sector has a 
long way to go.
    We have seen progress towards militia disarmament in recent months. 
In November, Japan and the UN completed the first DDR pilot program in 
Kunduz, disarming over 1000 combatants and collecting a corresponding 
number of individual and crew-served weapons. In the reintegration 
phase approximately two-thirds of the demobilized combatants requested 
agricultural assistance, job placement, or vocational training.
    The Gardez DDR pilot program was completed in December, resulting 
in nearly 600 combatants registering and turning in their weapons. DDR 
has also begun in Mazar-e-Sharif, and is scheduled to begin in Kandahar 
next month.
    We have also seen real progress in Kabul. On January 15, ISAF 
coordinated the transfer of over 100 heavy weapons belonging to the 
Northern Alliance out of Kabul, including multiple rocket launchers, 
antitank guns and artillery. Over 800 of the verified 2000 combatants 
identified for the pilot program have been disarmed and demobilized in 
Kabul.
    Even as we continue to stabilize the security environment, however, 
we must be working to build Afghan security institutions.
    We have trained an additional 1,300 Afghan National Army recruits 
since October putting ANA strength at 5,780 with over 2,100 more 
soldiers in training. We reached a major milestone just this month: the 
capacity to train three battalions simultaneously. That capacity is 
essential to our goal under the acceleration program of reaching a 
troop strength of 10,000 by the time of elections this summer.
    Over 1,200 new recruits are awaiting training in Kabul--an 
ethnically diverse group representing 26 of 32 provinces. These 
recruits are the result of a strengthened recruitment effort in the 
provinces. Ten new recruitment centers are partly or fully operational 
and twenty-four more are planned.
    Our police-training programs also entered a new phase over the last 
four months. With new resources available under the supplemental 
appropriation, we are building seven new regional training centers for 
national, border and highway police. The training center in Kabul is 
already complete and centers in Mazar-e-Sharif, Gardez, Kandahar and 
Kunduz are under construction and will reach full capacity of 750 
trainees by the end of next month.
    All-told, since last October, German and U.S. police-programs have 
trained over 2000 new national police officers and over 200 highway 
patrol officers. With the added capacity of the new training centers 
coming on line, this puts us on track to reach our goal of fielding 
20,000 police officers by the time elections take place next summer.

                    PROVINCIAL RECONSTRUCTION TEAMS

    As I reported in October, we are also working with our partners in 
the international community to deploy civil-military teams around the 
country to enhance security, accelerate reconstruction and extend the 
reach of the central government into the provinces. These provincial 
reconstruction teams (PRTs) contribute to both stabilization and 
institution building.
    In December we established four new PRTs--in Parwan, Herat, 
Kandahar and Jalalabad, bringing the total number of PRTs to eight. By 
the end of next month we expect to establish another four PRTs--in 
Ghazni, Asadabad, Khowst and Qalat. Over the last few months these PRTs 
have been instrumental in facilitating preparations for the 
Constitutional Loya Jirga, assisting voter registration teams, defusing 
tensions among rival militias and supporting DDR efforts and police 
training. We are examining options for expanding their number still 
further and encouraging NATO/ISAF to establish additional PRTs.

                            EMBASSY STAFFING

    Finally, we are well on our way toward building the team at our 
Embassy to manage the accelerated reconstruction effort. Ambassador 
Khalilzad presented his credentials to President Karzai on November 27, 
2003, and is being joined by a team of senior advisors to help him 
implement the acceleration program.

                               CONCLUSION

    Mr. Chairman, we are still very much in the stabilization phase--
hunting Taliban and Al Qaeda, jump-starting the economy. Even as these 
efforts continue, however, we are starting to build the institutions--a 
constitutional government, credible elections, loyal army and police 
forces--that will move Afghanistan toward the self-sustaining market 
democracy that we seek and the Afghan people deserve.
    As the President said last week:

          The men and women of Afghanistan are building a nation that 
        is free, and proud and fighting terror--and America is honored 
        to be their friend.

    As their friend, we need to assure the Afghan people that, this 
time, we will see this important mission through to success.
    Thank you.

    The Chairman. Well, thank you very much, Ambassador Taylor.
    We have good attendance by members today, but we also have 
lots of questions, so we'll have an initial 10-minute round and 
then perhaps proceed with another round if there are additional 
questions of members.
    Let me begin by observing that an average American looking 
at Afghanistan through the press, I think, still sees, 
essentially, an Afghanistan that is divided into areas 
controlled by so-called warlords. Circles of influence are 
placed upon a map, with Kabul as a story by itself. This road 
that you've described at least offers some entry into the 
hinterland. Beyond that, a war continues on the border between 
Afghanistan and Pakistan. These are principally United States 
military people fighting that war, even as the NATO groups work 
in Kabul and move out, as we've described today.
    The narcotics situation that you've mentioned appears to be 
very prominent and growing, maybe because there's less 
repression, and more ingenuity. Whatever the reason, there are 
great difficulties there. There is a sense of, not quite 
hopelessness about the security situation, but the election in 
June is seen as a bridge way too far. This is a country in 
which very few people have been registered as voters. The 
normal format for voting simply has not taken place, and this 
is already January 27. Frequently the criticism is made that 
the United States simply has not done enough--nor have the 
United States and NATO and our allies. Somehow we are hopeful 
that it will all work out, and we are committing some resources 
to it. However, in comparison, for instance, to the 
reconstruction effort in Iraq, Afghanistan is clearly several 
steps behind--in terms of emphasis, in terms of resources, 
personnel--and, not quite an afterthought, but a country to one 
which more thought has been given in the last few months than 
had been given for some time before.
    All of this leaves the situation in Afghanistan in the 
balance. It might work out well, but, on the other hand, it 
might not. It's not really clear, if you're looking at the 
situation, whether we are winning or losing, how Afghanistan 
finally is going to fare. The commitment is there, but is it 
enough? Is it concerted? Is there an overall plan? Do we have 
really a good idea? Someone--that is, the President of the 
United States or Secretary General of the United Nations or the 
head of NATO or somebody--must discern comprehensively how this 
is going to work out.
    This is broadly cast, but I would like both of you to give 
some idea of why you have confidence that, in the end result, 
Afghanistan will have a democracy; that the constitution, in 
fact, will go into effect; that the promises to women that have 
been involved in this and have been very prominent, in fact are 
going to occur, notwithstanding backsliding in the warlord 
areas, notwithstanding attacks such as the attack on the 
Canadian who was killed in Kabul yesterday in what clearly is 
still a recurring situation, and not withstanding terrorist 
attacks upon NATO people, quite apart from United States 
combatants. Why should we have confidence this is going to work 
out well? Why should we devote more resources to that fight?
    General Jones, would you address that, first of all, from 
the security standpoint? And Ambassador Taylor, from all the 
other standpoints?
    General Jones. Mr. Chairman, I think that, from my vantage 
point as a NATO commander and working with General Abizaid in a 
very close way, I think the United States can be very proud of 
the work it's done thus far to date, particularly in the 
military operations. We are not fighting an enemy that is going 
to be victorious, in military sense; we are fighting 
essentially an insurgency. We're fighting against different 
factions, who have some military capability to psychologically 
demoralize us, but will not prevent us militarily from being 
successful.
    I think General Abizaid would tell you, if he were here, 
that the number of al-Qaeda, the estimated number of al-Qaeda 
has been significantly attrited over the past year.
    NATO has decided that it wishes to create abilities, as a 
result of the Prague summit, that will allow it to be more 
effective in global missions, certainly well beyond the 
traditional borders of NATO, and has established a footprint in 
Kabul with a limited mission, but, nonetheless, an important 
mission, because Kabul represents the center of gravity, truly, 
for the country--and very shortly after establishing that 
footprint, in August of last year, decided to expand its reach 
to include the Kunduz province, under a German-led PRT that is 
fairly robust and somewhat of an exciting departure from the 
traditional NATO missions. And now I have received guidance 
from the North Atlantic Council that it wishes to even do more.
    So that is a basis for optimism, at least at the political 
level, because it is something that the Alliance is committed 
to doing. The new Secretary General is lending the influence of 
his office toward accelerating the process. And it really is 
the mission that NATO has signed up to at the political level.
    We have had, it must be said, some difficulty in generating 
the military forces that support the political level of 
ambition, but I believe--and I'm hopeful--that as the 
operational plan is developed, that it will be developed in 
such a way that the military requirements to support the level 
of ambition will be clearly identified and laid before the 
nations in such a way that they can embrace it and understand 
it and support it over a measured period of time, and gradually 
expand, as they have directed the military component of the 
Alliance to gradually expand the influence, the reach of the 
Alliance, and bring, I think, great and welcome help to 
Operation ENDURING FREEDOM in the U.S.-led portion of the 
mission.
    So my optimism would be genuine, with one caveat, the 
caveat being that the military component of the political level 
of ambition must be resourced and supported. And to the extent 
that that will be done, I think we can have a profoundly 
significant effect in the PRT concept, which is, I think, an 
exciting way in which the government can expand its reach and 
provide for more security, stability, and reconstruction in 
Afghanistan.
    The Chairman. Mr. Taylor.
    Ambassador Taylor. Mr. Chairman, I agree exactly with 
General Jones about the cause for optimism that NATO brings us, 
allows us to feel. That is, this is a serious institution that 
is focused now, is committed, and the new Secretary General has 
indicated this is the top of his priority. That gives me 
confidence that, on the security side, if we resource it, if we 
keep our focus on Afghanistan, and if NATO does what it is 
intending to, is planning to do, if the nations of that 
Alliance come up to the plate with resources, then, on the 
security side, we can do that.
    Your question also went over to the constitution, to 
narcotics, to warlords, and the security for the election. My 
sense, Mr. Chairman, is, again, if we, the international 
community--if we, through the United Nations, which is strongly 
committed and is very competent in Afghanistan--are able to, 
again, keep our focus and bring the resources, then we will be 
able to prevail, over time. As I indicated earlier, this is not 
a short-term effort. None of these problems that you described 
are amenable to short-term solutions. The Governors in 
provinces, some of whom are not loyal to the center--some 
people call them warlords--one by one, President Karzai is 
replacing them. He replaced several more over the weekend, or 
moved them around, took them from one base of support and took 
them out of that to somewhere else. He is replacing Governors 
that have not performed. So there are measures being taken on 
that. We support President Karzai. We have a government.
    The other reason for optimism is, in Afghanistan there's a 
government that we support, headed up by a very popular leader.
    The Chairman. Do you have control over the funds? Are you 
able to prioritize where our money is going?
    Ambassador Taylor. You say, do I have control over the 
funds?
    The Chairman. Yes.
    Ambassador Taylor. I work very closely, of course, with 
Secretary Armitage, Deputy Secretary Armitage, and he and I, I 
believe it is fair to say, do have control over the funds, but 
he is the principal man in the State Department who has that 
control.
    Mr. Chairman, you also asked about narcotics. This is a 
problem that we cannot be, at this point, sanguine about. What 
we have to do is focus our efforts, and we are doing that, both 
on the civilian side, with training for the police, which will 
lead to enforcement of laws that are not now being enforced, 
and that will lead to, eventually, a reduction. I'm hopeful 
that next year we will see a reduction, instead of another 
increase, in the number of hectares under cultivation.
    You asked if the United States is doing enough. We could 
always do more. We are asking you, as you indicated, the 
Congress, for additional resources next year. We will probably 
come in the year after that for additional resources. If we can 
maintain the current level, or even increase it, then we can 
have expectation, we can be optimistic, in your words, that we 
will be able to go into--from the stabilization phase into the 
institutionalization phase, that we will be able to get an 
economy that can generate the revenues, that will have security 
forces that can provide stability for the Afghan people, and 
the political institutions that will allow this government to 
go into elections and stabilize that part.
    So I do have that optimism. We cannot fail. Failure is not 
an option. It's still possible. We've failed in the past. We 
could lose our focus, we could lose our attention, so it's 
still possible, but it is not an option. We need to focus on 
this thing.
    The Taliban, Mr. Chairman, have a saying that I've heard a 
couple of times in the past couple of months, and that is, 
``The Americans have the watches, and we have the time.'' We 
need to be sure that they are wrong. We need to prove them 
wrong. We need to show them that we are going to stay there, 
that they can't outlast us, that we are going to achieve this 
goal that we've set out on.
    The Chairman. Thank you, sir.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    General Jones, I want to compliment you on the job that 
you're doing in internationalizing the force; and it apparently 
is working. We have approximately 11,000 troops, U.S. troops, 
there now in Afghanistan. Is that correct? Do you see that 
amount being maintained at a level amount for the next year?
    General Jones. Senator, it's my understanding, from talking 
to General Abizaid, that that level of effort will stay fairly 
constant, subject to reevaluation as NATO adds its own force 
list. But I think that, from my perspective right now, I would 
say that it's probably fair to say that it would stay fairly 
constant for the foreseeable future.
    Senator Nelson. What would be your opinion about the 
interest of the United States being advanced if, say, we 
doubled the number of U.S. troops there?
    General Jones. Well, if we're able to add more troops to 
the conflict, I think that the central--I think General Abizaid 
would consider the types of troops that he needed. I think, 
based on the security environment, he might wish to, for 
instance, aid--have the type of troops that would be helpful 
for the reconstruction, more than the combat, depending on the 
security mission.
    On the other hand, if the combat requirements along the 
border for some reason intensify, and he's able to dedicate--he 
judges that it's more to our effort to--more to our interest to 
deliver a death blow finally, once and for all, to al-Qaeda and 
the Taliban, then he could come in with a different type of 
recommendation. But, obviously, whether they're NATO troops or 
U.S. troops, if you bring more to the table, you might be able 
to accelerate the outcome.
    Senator Nelson. Do you anticipate, in the next year, the 
increase of NATO troops there?
    General Jones. Senator, I am engaged in developing an 
operational plan for the Alliance that will be ready sometime 
next month, and if the Alliance wishes to proceed with getting 
more involved in the Provincial Reconstruction Teams and expand 
the ISAF mission beyond Kunduz and Kabul, which I believe the 
Alliance has shown a political will to do, that will be 
accompanied by an increase of NATO troops in commitment and 
capability.
    Senator Nelson. And the leadership that you're offering is 
outstanding, general, as you remake a lot of the old NATO into 
the new NATO, and certainly this is the application of that and 
it can help the interest of the United States; indeed, the 
world.
    Final question. In the approximately 2 years that we've 
been in Afghanistan, give me the approximate level, U.S. troop 
level, say, at the end of the first year; and now at the end of 
the second year it's at 11,000.
    General Jones. Sir, if I could provide that for the record, 
I just don't have it off the top of my head, from a NATO 
perspective, but I will--I'll get that for the record. I want 
to be exact in that response.
    Senator Nelson. OK.
    [The following response was subsequently supplied.]

    On 31 December 2002, at the end of our first year of conventional 
operations in support of Operation Enduring Freedom, we had nearly 
9,000 U.S. military personnel on the ground in Afghanistan. (Actual 
number for 31 Dec 02 was 8,989.) On 31 December 2003, at the end of our 
second year, the total number of U.S. military personnel in Afghanistan 
was just over 12,000. (Actual number for 31 Dec 03 was 12,004.)
    While our forces deployed to ensure security and stability within 
Afghanistan remained relatively constant throughout 2003, we did deploy 
additional U.S. Marine ground and aviation units late in 2003 to 
support contingency operations. We also assumed additional civil/
military responsibilities to mentor Afghani governmental agencies, 
train and develop the Afghan National Army, and assist in developing 
their aging infrastructure. The additional force structure we deployed 
in 2003 enabled us to establish a viable command structure in 
Afghanistan to oversee operations throughout Central Asia, as well as 
an Office of Military Cooperation based in Kabul. We also deployed a 
task force of nearly 800 engineers, and doubled our existing civil/
military affairs, psychological operations and training support teams 
that number nearly 1,400 in Afghanistan today.
    Supporting Data: The 3,000 delta between Dec 2002 and Dec 2003 
includes:

  <bullet> USMC ground forces (2/8 Inf) +975
  <bullet> USMC aviation forces (HMLA 773) +275
  <bullet> TF Gryphon (Engineers) +800
  <bullet> CFC-A +175
  <bullet> OMC-A +100
  <bullet> CJMOTF +525
  <bullet> JPOTF +150

    Senator Nelson. Mr. Chairman, thank you. The implication of 
my questions are, can the interest of the United States, in 
stabilizing Afghanistan, which is clearly necessary, can it be 
promoted with a larger force? And I think that's a question 
that we should constantly ask, on this committee and on the 
Armed Services Committee.
    Thank you, Mr. Chairman.
    The Chairman. Good question. And we thank you for your 
willingness to supply it for the record, general.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Welcome, Ambassador 
Taylor and General Jones.
    General Jones, I appreciated very much the opportunity to 
be with your colleagues at NATO in Brussels last week, and, 
during that 2-day visit, learned a great deal about some of the 
issues that you have focused on this morning, as well as 
Ambassador Taylor. So thank you.
    General, I'd like to pick up on a couple of the questions 
that Senator Nelson addressed, and that is resource capability.
    I have heard reports that, in fact, the commitments made by 
NATO nations engaged now in ISAF operations have not been 
forthcoming in the way of manpower, resources, and those 
commitments have not been fulfilled. Could you address that 
question?
    General Jones. Yes, sir, I can. It is true, we're working 
on a current characteristic of not only the mission in 
Afghanistan, but all NATO missions, with regard to what we call 
the force-generation process. The way NATO functions is that, 
as the NAC--the North Atlantic Council gives guidance to the 
military component, which is the one I'm honored to lead, we 
develop concepts of operations, which are then reviewed and 
approved; then we develop an operational plan, which is 
reviewed and approved by the military committee and the North 
Atlantic Council; and then we go off into what we call the 
force-generation mode, and that's the convocation of all 
nations now to put the substance where the political will is.
    And, generally speaking, historically, we've had a 
difficult time generating the force that the military commander 
says is necessary for a mission. We always seem to come up a 
little bit short. It always takes a little bit longer than we 
wish.
    But as NATO is pivoting almost 180 degrees into the wind to 
try to tackle real-world missions in real time, instead of 
getting there late, instead of having a very low level of 
ambition, in terms of what it wishes to do, the level of 
ambition has now been raised. You cannot go into Afghanistan, 
for example, with a force that is not properly resourced, from 
a military standpoint. That's been one of my anchors with 
regard to expanding the mission, even to Kunduz.
    And we know that recently we've had difficulty in 
generating just seven helicopters to round out the force to 
support the expanded mission in Kabul. The political will has 
been stated, the Alliance has agreed, the donor countries have 
been identified, and yet we find ourselves mired in the 
administrative details of who's going to pay for it, who's 
going to transport it, how's it going to be maintained, and it 
goes on.
    This is part, I think, of NATO's task to transform and 
reform itself in that context, and we simply have to become 
better and quicker and more efficient at generating the force 
to support the operational plan. And I believe this exercise 
that we're about to go through, with this very ambitious 
expansion of NATO's mission in Afghanistan, will be a defining 
moment for the Alliance as to whether we have, in fact, the 
internal will and discipline to generate the force in a 
timeframe and a degree of sufficiency that'll allow us to be 
successful.
    I remain optimistic that the political will has spoken. I 
understand the guidance that I have been given, and I think 
serious-minded people understand that this is a defining moment 
for the Alliance, in terms of how it wishes to proceed for at 
least the next few years in the 21st century, because 
Afghanistan is in the boardroom of NATO right now. It is 
public, it is stated. It is not--it is beyond question that 
we're going to do--we have the appetite to do some things. 
Outside the boardroom, in the corridors of NATO, are ongoing 
discussions that are perhaps even more ambitious, in terms of 
future NATO missions in other parts of the world.
    So this is a defining moment, and we will work very hard to 
make sure that we resource the force to support the political 
level of ambition.
    Senator Hagel. General, thank you. I don't think there's 
any question that you understand this, and I would suspect all 
your colleagues do; but every day those resources aren't there, 
we're losing a day.
    General Jones. Exactly.
    Senator Hagel. And I made that point, incidently, when I 
was in Brussels last week. And I think we all, to your point, 
have a sense of commitment and will, but it must be matched 
with those resources. Because what Taylor's trying to 
accomplish, as he has said and you know better than almost 
anyone, is directly connected to those resources. But thank 
you, general, very much.
    Ambassador Taylor, on the elections, I wanted to go back to 
some of your written testimony, where you note that--your 
words, I'll quote from your written testimony, ``Registration 
is underway, with the U.N. reporting that some 500,000 voters, 
out of an estimated ten and a half million, have been 
registered to date.'' If I understand it correctly, the 
election has been set for June. What is the realistic 
assumption here that, in fact, that election is going to take 
place in June?
    Ambassador Taylor. Senator Hagel, the Afghan Government, 
the United Nations, and the international community have 
focused on June as the date of the election, and that group of 
entities is working toward that. The Bonn Agreement established 
June 2004 as the target. The constitution recently adopted, 
signed yesterday, was--it gave a little more flexibility in 
actually when that would happen; and we would argue that the 
Constitution now is the operative guideline for the Government 
of Afghanistan.
    We are still targeted for June. There are a lot of things, 
as you just indicated, on the voter registration that have to 
happen. Now, actually, today it's 600,000. That's still not 
close to where we need to be, but it is an indication that 
there is movement.
    They are about to accelerate--the U.N. is about to 
accelerate this voter registration. Up until now, they've been 
registering voters in eight cities around the country. They're 
about to go to all 32 provinces, so there'll be 32 cities 
around the country where people will be able to register. And 
then when the snows melt and the weather is a little better, in 
the spring, they will go to a phase 3 that will go out to many 
of the villages in the rural areas.
    So there is a plan. It can happen, at least on the 
Presidential side--that is, in the Presidential election. The 
parliamentary election, I think will be more challenging, 
because essentially you have 32 elections.
    There's still dispute, actually, about the number of 
provinces. There have been a couple of suggestions of a couple 
of new provinces, and there are also questions and disputes 
about the districts within the provinces, the boundaries. These 
are important--as everyone in this building knows--these are 
important questions about parliamentary elections. You need to 
know how many states there are, how many districts there are. 
So these issues need to be resolved, are on the way to being 
resolved, but it's going to be a challenge.
    And, again, in direct answer to your questions, we are 
targeted on June. We are going through some very realistic 
planning for this right now. If that has to change as of some 
period of time in the next couple of months, then the 
Government of Afghanistan will make that decision.
    Senator Hagel. So there's a possibility that they will move 
that June date, based on the factors that are required to have 
a transparent, open, honest election.
    Ambassador Taylor. It's possible. Yes, sir.
    Senator Hagel. Thank you.
    A question for each of you , ISAF responsibilities--I 
didn't hear a lot from either one of you, partly because you 
have limited time and focus on your testimony--regarding the 
eastern border of Afghanistan, specifically the border with 
Pakistan, that south/southeastern/eastern part of Afghanistan 
that is the most dangerous, the most troublesome.
    Questions. Are we looking at moving NATO-sponsored PRTs 
down in that area, cooperation we're getting from the Pakistani 
Government? Maybe both of you could each round out the general 
question here about that part of Afghanistan.
    Thank you.
    General Jones. Senator, from just the pure theoretical 
construct of how NATO might proceed--as you know, NATO's 
general level of ambition and missions is centered around the 
words security, stability, reconstruction, and the like, and 
this will be the focus of NATO's mission. We are doing an 
analysis right now, working closely with the Central Command, 
as to the regions, to better understand the regions in 
Afghanistan that are ready for PRT-like establishment and 
presence. And the commander of the U.S. Central Command has 
suggested that since we've started in the north, that it would 
be good to stabilize the north with PRTs that might be NATO-
led, depending on how we wish to proceed, but gradually take 
over the--go from north to south, and then, subsequently, to 
the east, from a NATO perspective.
    This is all work in progress right now. But it's clear that 
the border regions are the one where the combat operations are, 
and they're the most unstable. But I think we'll just have to 
wait and see how NATO wishes to proceed, based on the ongoing 
work that we're doing with U.S. Central Command as to what's 
the best way to do this.
    But we are really doing detailed analysis of what are the 
regions and what are the areas that are most ready for this 
stability, support, and reconstruction, so that we can 
capitalize on that. Hopefully, that will have the effect of 
freeing up additional forces for General Abizaid to further 
sanitize those regions that are having military difficulty, in 
the classic sense, so that eventually we can expand to the 
entire country for stability, security, and reconstruction.
    But that's generally the state of work between both of our 
commands right now, and I would expect that--within a few 
weeks, that NATO will be able to brief a comprehensive plan 
that will lay out exactly how the Alliance wishes to proceed.
    Ambassador Taylor. Senator Hagel, exactly as General Jones 
said, the focus on PRTs getting out into the difficult region, 
in the south and southeast, is Lieutenant General Barno's--he's 
the commander on the ground there, whom you met--he's very 
interested and has concrete plans to put an additional four, 
maybe five PRTs in the south and southeast. So the original 
eight are spread around the country. And as General Jones said, 
Germans are in the north, Brits are in the north, New 
Zealanders are in the center, ours are--the American PRTs are 
in the south and southeast, and that's where the next four will 
go, to continue to add stability and take actions in that area, 
both on the reconstruction side and on the security side.
    You asked about the Pakistan border. Recent actions on the 
part of the Pakistani authorities should give us some reason to 
be pleased about their commitment to taking actions in that 
difficult part of their country. As you know, for a long time 
neither the Brits, nor the Indians, nor anyone else were able 
to put forces up into that area along that border, and the 
Pakistanis have done that a couple of times in the past couple 
of months. Just about 2 or 3 days ago, Pakistani authorities 
picked up an al-Qaeda member who had--or, I'm sorry, a Taliban 
member. They've picked up a lot of al-Qaeda, and have not 
picked up as many of the Taliban. So this collection the other 
day of a former Governor under the Taliban regime is an 
important step, an important indication that the Pakistani 
authorities are focused on this area. So there's some reason to 
be optimistic about that, as well, both on the PRT side as well 
as on the Pakistan-border side.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much.
    The Chair would like to call on Senator Boxer next, with 
the forbearance of Senator Feingold. I made a mistake in 
seniority, and I apologize to the Senator. But I'd like to call 
upon you now, Senator Boxer.
    Senator Boxer. Thank you. Thank you, Russ.
    Thank you so much, Mr. Chairman.
    And thank you both for your service to our country. It's 
tough service, and it's important service, and I agree that we 
can't fail.
    And since 2002, this committee, on both sides of the aisle, 
has been calling for more security throughout Afghanistan. And, 
general, you made a statement that I thoroughly agree with. You 
said, in response to Senator Nelson, ``more troops will 
accelerate the outcome.'' And I just think that's a fact that 
no one can deny. And for me, it doesn't have to just be 
American troops at all. It could be, you know, the NATO troops.
    I don't think PRTs are the answer, because they're not just 
security. And I think we have to understand, when you talk 
about units of PRTs, they're usually in sixty to a hundred. So 
I think if we believe what the general said here, that more 
troops will accelerate the outcome--this committee has really 
been on this for so long, and I would like to make a comment to 
back up why I think it's so important.
    The President said, in his State of the Union, ``Boys and 
girls of Afghanistan are back at school.'' And, indeed, they 
are. However, only half the girls are back at school, not all 
the girls are back in school. And this is a very important 
point. And why won't the parents there send their girls to 
school? Because the security situation is very tenuous in 
certain parts of the country.
    I believe, again, this committee has been singing them one 
note for a long time here, and we're still not seeing--and I 
still don't see, in your testimony, a realization that we 
should be moving quicker.
    Since August 2002, more than 35 schools for girls in the 
south and southeast have been hit by rockets or burned down. 
And we don't have any human rights representatives here today, 
but I want to read to you, Mr. Chairman, comments from a Human 
Rights Watch report issued earlier this month. ``Women and 
girls bear some of the worst affects of Afghanistan's 
insecurity. Conditions are generally better than under the 
Taliban, but women and girls continue to face severe 
governmental and social discrimination. Those who organize, 
protest, or criticize local rulers face threats and violence. 
Soldiers and police routinely harass women and girls, even in 
Kabul. Many women and girls are afraid to remove the burka, 
because soldiers are targeting women and girls. Many are 
staying indoors, especially in rural areas, making it 
impossible for them to attend school, go to work, or 
participate in the country's reconstruction.''
    So my first comment is, please send a message back. I 
think, again, that at least this committee, in a bipartisan 
way, doesn't want failure, and we believe that means more 
security.
    I would like--and I have one question at the end, but just 
one other comment, and then, Ambassador Taylor, I am going to 
send to you a bill that I've just introduced that deals with 
more attention to the women of Afghanistan.
    Last year, when the President sent his supplemental $87 
billion, only $799 million of that $87 billion was for 
Afghanistan. Congress, happily, increased this amount by $365 
million, including $60 million for women's programs in 
Afghanistan, but it well short of what we have to do.
    According to CARE International, just 40 percent of the 
$5.2 billion in aid pledged in Tokyo 2 years ago has been 
released, and nearly a quarter of that has been diverted to 
short-term emergency needs from long-term Afghan 
reconstruction.
    Women are desperate for basic assistance, such as 
education, healthcare, economic opportunities. So this bill 
that I've put in--and I'm hoping to get some strong bipartisan 
support--will give us more funding for women and girls over the 
next 3 years.
    So I would like to send you this bill, along with a chart 
that just shows what the Afghan women's ministry says that they 
need, and I wonder if you would just give me some feedback on 
that. Excellent.
    And my last question, or my only question, really, is to 
the general, and it regards something I've been involved in 
here for a long time, which is the threat of shoulder-fired 
missiles. And, as we know, in the 1980s there were hundreds of 
Stinger missiles given to the Mujaheddin, who were fighting to 
oust the Soviet Union from Afghanistan. And it was the Taliban 
that received those weapons, and others like that, or the 
Taliban developed from the Mujaheddin.
    During U.S. combat operations in Afghanistan, U.S. airmen 
reported that Stinger missiles were fired at their aircraft. Do 
you have any estimate, general, of how many U.S.-made Stinger 
missiles remain unaccounted for in Afghanistan? Do you have any 
estimate of the total number of shoulder-fired missiles now in 
Afghanistan?
    General Jones. Senator, in response to your very specific 
question, I would have to reply, for the record. I will ask 
General Abizaid, whose U.S. mission it is to do the combat 
operations. As NATO commander, my focus is for my NATO 
missions. But it's a legitimate question, and I would just--
would absolutely say that, whether it's Afghanistan or Iraq, 
the technology of shoulder-fired weapons are of great concern 
to us, and particularly the loss of any kind of U.S. 
technology, which would be very serious.
    So I will ask that question, and with your permission, I'll 
get back to you.
    Senator Boxer. Thank you.
    [The following response was subsequently supplied.]

    The information follows:

    [DELETED]

    Senator Boxer. Mr. Chairman, I so appreciate your courtesy. 
And, Senator Feingold, thank you.
    General Jones. Mr. Chairman, may I elaborate on one point--
--
    The Chairman. Yes.
    General Jones [continuing]. That the Senator raised that I 
think might help on the subject of troops?
    One of the most important fundamental principles of our 
efforts, I think, in Afghanistan and Iraq, is the development 
of the Afghan National Army. It is absolutely critical that we 
be successful here. And one of the key elements that will allow 
us to be successful in bringing more security to Afghanistan 
is, of course, teaching the new Afghan army that it has to be 
willing to take on an increasing role in this context.
    I've been in uniform for 37 years. My first assignment was 
as a platoon commander in Vietnam, and I witnessed firsthand 
what it's like to defend a country whose army would not fight 
for itself. And the fundamental principle of success, whether 
it's any major operation as we try to bring freedom and 
democracy to other countries, is to, first of all, set the 
conditions by which the newly developed army--and, in this 
case, an army that has an ambition to become one of almost 
70,000 soldiers adhering to the principle of subordination to 
legitimate civilian authorities, who derive their governance 
from a democratic means, with all of those implications--simply 
has got to be taught. And, in my view, the success of the PRTs, 
from a security standpoint, should not necessarily be seen in 
terms of the numbers of soldiers, but also in the numbers of 
Afghan soldiers who are out there side by side learning these 
principles with our NATO soldiers or our U.S. soldiers, who 
provide this wonderful example.
    But I think it would be a huge mistake if we thought that 
we could, by ourselves, do this without insisting that, over 
time, they do more and more, and I just wanted to make that 
point, because I think it's fundamental to the future success 
of the entire mission.
    Senator Boxer. I think we all agree with that. Thank you.
    The Chairman. Thank you, Senator Boxer, for your questions, 
and, General Jones, for your response.
    Senator Chafee.
    Senator Chafee. Well, thank you, Mr. Chairman. And thank 
you, gentlemen, for your testimony.
    General Jones, you just mentioned Vietnam, so I'll followup 
on that. And as we battle the increasing Taliban in the 
southeastern part of Afghanistan, recently there was some 
controversy about civilian casualties. And how do we battle the 
Taliban, as they infiltrate into the villages and just become 
part of the fabric of some of these towns, without civilian 
casualties?
    General Jones. Senator, urban warfare is the most difficult 
type of warfare any military can engage in, from the standpoint 
of human costs on both sides. It is difficult, but the 
fundamental pillars of its success are almost universal. It has 
to do with--and it all has to do with intelligence--it has to 
do with creating conditions by which the people of the cities 
and the towns in the hinterland are convinced that their lives 
will be better if we're successful, and that we are able to 
provide assurance that they're being protected, to the best 
extents possible, and that it is in their interest to cooperate 
and help us identify those terrorists, insurgents who are 
hiding among them. And when people believe that their--the 
balance crosses over, and they believe that the quicker they 
hand these people over and identify them and we apprehend them, 
the greater their collective security will be, is a turning 
point in any kind of insurgency.
    One of my mentors, in the Marine Corps, General Al Gray, 
told me that the fundamental rule of guerrilla warfare is, 
never do anything that's not good for the people, and don't 
make any more enemies than you've already got. And that's not a 
bad way to proceed. And if we are able to develop the human 
intelligence and the cooperation, all the while convincing the 
people of Afghanistan that we are genuinely there to make their 
lives better and to give them hope for their children, and 
their children's children in the future, I think we can 
prevail.
    But urban conflict and the ability of insurgents to 
terrorize and to threaten people is certainly one of the first 
lessons of my professional life, when I saw that firsthand in 
the battlefield in South Vietnam.
    Ambassador Taylor. Mr. Chairman, I wonder if I could just 
add one thing to that. General Barno has recently observed 
exactly what General Jones said we'd need to look for, and that 
is an increase in the local people coming forward and 
identifying caches of weapons. General Barno and his troops 
have uncovered 30--or more now, I suspect; this is a couple of 
days old--caches just this month, just in January, up from--
they didn't get that many in all of the 6-months prior. So this 
may be some indication that we are starting to get the kind of 
support, the kind of cooperation, the kind of intelligence that 
we need in order to fight the insurgents and the terrorists.
    General Jones. One more point, if I may, sir. It will be a 
tactic of terrorists who will first try to take us on and to 
inflict casualties on Americans or on NATO forces. And as they 
become convinced, as we're seeing in Iraq, that this is not a 
militarily achievable target, because we are insistent that we 
will succeed, then they will turn to the targets that are next, 
the most vulnerable targets, and that's the people themselves 
and people who are trying to make a difference in this case, in 
Afghanistan. And so it'll be a very worthwhile and noble 
challenge to make sure that we protect those people who put 
themselves at risk to try to make a difference in the 
countryside.
    Senator Chafee. And one of the areas, as we strive to do 
that, to make their life better, is, as the Ambassador 
mentioned, on the narcotics issue and the growing of the poppy 
and--obviously it's a lucrative crop, comparatively. And how 
are we doing in that area?
    Certainly this hearing's about stabilization of 
Afghanistan. It's tremendously destabilizing to have the poppy 
crops increasing. It's just corrupting of every form of 
government around it--judiciary, whatever it might be. The 
warlords or the growers have their own militias to protect 
their crops. What's our strategy there? Are we eradicating? Are 
we doing crop substitution, paying them to grow another crop, 
or having stricter border patrols? How are we doing on that as 
we try and make their lives better, as the general said?
    Ambassador Taylor. Senator, this is, as I indicated 
earlier, one of the most difficult areas. We're not winning 
this battle yet. But as you've indicated, there are plans, and 
there is a strategy that the Afghans and the international 
community are working together on, and it includes elements of 
each of the pieces that you said. That is, eradication--where 
in the past, eradication was sporadic, uncoordinated, subject 
to accusations of favoritism--the Governors eradicated their 
enemies, but didn't eradicate their friends' fields, that kind 
of problem. This year, the reason I think we can say that there 
will be a decline, as opposed to a continued increase, in the 
number of hectares under cultivation, is that there will be a 
serious eradication program that will begin very soon, first 
under Governors and then under the international community 
sponsorship.
    The second is, as you indicated, you have to have 
alternative livelihoods. You have to have either alternative 
crops or alternative jobs for people whose fields are being 
eradicated and they're pushed out of that area, out of the 
poppy growing, into something else; and that's coming, as well.
    Finally, you need enforcement. Right now, the law, which is 
both a religious law as well as a law from President Karzai, is 
not being enforced. Poppy fields are rampant, and they are 
shameless, frankly. In some small towns, in the village square 
there is these lovely poppy fields, these beautiful flowers are 
right there in the center of the town. And when you ask the 
police what they're doing about it, kind of, hands go up, and 
they say, you know, I've got a thousand policemen, but I have 
one vehicle and I have two radios. And so it's this kind of 
enforcement and training, equipping of the police that has to 
go with the eradication and alternative livelihoods to make 
this a program.
    So I hope I can come back to you--we can come back to you 
in 6 months and tell you we've made some good progress. We have 
plans, but we need to demonstrate to you and to the Afghan 
people and to the world that we're actually going to implement 
those plans.
    Senator Chafee. And, obviously, the objective here, as the 
general said, is to win over the people. And if we're 
eradicating their livelihood, it is a delicate balance of 
trying to do the right thing, winning the people over so we can 
get the proper human intelligence, and providing them with a 
livelihood.
    General Jones. Senator, if I could just comment on that, on 
your question, which I think is extremely insightful.
    I like to use the term narco-terrorism, as opposed to 
narco-trafficking. I believe that the funding that comes 
through a lot of--many terrorist organizations comes directly 
from the illegal trafficking of narcotics. And in the European 
context, and, actually, in the developed, civilized free world, 
if you will, this should be seen as an asymmetric weapon by 
terrorists that's aimed at the heart of our societies.
    And, in NATO, we have launched, really, an entire naval 
operation in the Mediterranean, called ACTIVE ENDEAVOR, to 
restrict the volume and the corridors, the avenues of approach, 
if you will, into the Alliance and from there to the United 
States by the sea lanes of communication.
    We've been extraordinarily successful in the past year in 
making the Mediterranean more safe and more secure than it's 
been anytime in the last 10 or 15 years with this operation, 
which is an ongoing, standing naval forces operation. The 
community of nations is developing a very comprehensive 
intelligence network so that ships that come through the Suez 
Canal and try to transit all the way through Gibraltar are 
routinely scrutinized and run the high possibility of being 
boarded to look for weapons of mass destruction, illegal human 
trafficking, narcotics, and the like.
    But this is a very, very big problem, and it is as much 
part of the global war on terrorism as anything else.
    Senator Chafee. That's certainly our experience in 
Colombia. There's a lot of money involved, and it's not easy.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Feingold, thanks for your patience.
    Senator Feingold. I thank you very much, Mr. Chairman. And 
thank you, General Jones and Ambassador Taylor, for testifying 
today.
    One issue that I am very concerned about with regard to 
Afghanistan is whether the United States is devoting adequate 
intelligence resources to Afghanistan and to the terrorist 
presence within the country. And I guess I'd like to start off 
by asking both of you if you think there's been any significant 
change between the intelligence resources that were focused on 
Afghanistan in early 2002, versus those that are currently 
focused on Afghanistan.
    Apparently in June, the Washington Post quoted Rand Beers, 
a counter-terrorism expert who served in this administration, 
as saying the U.S. military presence in Afghanistan is too 
small; so small that, in fact, quote, ``terrorists move around 
the country with ease.''
    Has the situation appreciably changed? Let's start with the 
general, and then the Ambassador.
    General Jones. I believe that--again, I think General 
Abizaid would be much more expert than I because of our 
different tasks here, but because of the uniform I wear, I am 
interested in, obviously, these types of questions. And I think 
that it's fair to say that the intelligence network that we 
have in place is yielding greater and greater results as we 
start to focus more and more on human intelligence.
    For over 10 years, we, as a nation, collectively, walked 
away from the value of human intelligence, and we have 
discovered that it is an irreplaceable commodity; in fact, it's 
a fundamental essential requirement of a successful mission 
against any kind of insurgency, especially with a war on 
terrorism.
    Unfortunately, you cannot just push a button and develop 
the adequacy and the base immediately. It has to be grown, it 
has to be developed, it has to be funded. And I believe that we 
are devoting the resources, and we are materially enhancing our 
ability to develop good intelligence, and specifically in 
Afghanistan. But it isn't something that will change overnight, 
and I think we would always like to have more. But I think that 
the site picture that we're getting for both our U.S. mission 
and other missions is considerably better than it would have 
been had we not made the changes, and had the Congress not 
supported the funding the changes with the funding it has 
generously provided.
    Senator Feingold. General, I appreciate that answer, but 
let me just followup quickly. What I also wanted to know was 
whether the resources that we're devoting to intelligence in 
Afghanistan are the same as, less than, or greater than they 
were in early 2002.
    General Jones. I will ask General Abizaid for his opinion 
and respond to you directly on that.
    [The following response was subsequently supplied.]

    [DELETED]

    1. [DELETED]

    2. [DELETED]

    3. [DELETED]

    General Jones. Having talked to him recently--we are both 
in town for a combatant commanders conference--I believe his 
answer would be that there is a much greater emphasis, and the 
resources that have been provided have made a significant 
difference in his intelligence site picture, as how he leads 
the U.S. forces and the site picture that he has from 
intelligence.
    Senator Feingold. OK.
    Ambassador.
    Ambassador Taylor. Senator, I would agree. There have been 
a couple of statements recently, by General Abizaid and other 
commanders in Afghanistan, that expressed confidence that we 
will have more success against terrorists--against al-Qaeda, in 
particular--in this year, in the coming months.
    This may indicate an increase in resources. I think General 
Jones is exactly right, we would could get you something, in 
some other forum, that indicates the resources that are 
available.
    Senator Feingold. I would appreciate that.
    Ambassador, how would you characterize the overall 
perceptions of the United States and United States policy among 
the people of Afghanistan? What are our most important public-
diplomacy challenges? Which misperceptions are the most 
damaging, and what are we doing to address those?
    Ambassador Taylor. Senator, the people of Afghanistan are 
very supportive of Western presence; and, in almost all cases, 
they see Western presence, and they think it's American. They 
see military--General Jones indicated the diverse nature of our 
coalition, but to many of the people of Afghanistan, these are 
American soldiers. And they're very pleased that those American 
soldiers, or those Coalition soldiers, are there.
    Their concern is that we will leave too soon. Their concern 
is that the Americans will not be able to maintain this focus, 
that we'll not devote the resources that we've indicated we 
will, that we will not stay the course, and that--in answer to 
your question on our public-diplomacy challenge, that is what I 
think we need to be very clear. We need to have the support--we 
need to be seen to have the support of Congress, of the 
American people. We need to demonstrate that we are there on 
the reconstruction side, that we are there for as long as is 
necessary on the security side, with our forces. It's that kind 
of commitment that we need to show, and that is the public-
diplomacy challenge that we face.
    Senator Feingold. I just want to follow on whether there 
are any misperceptions. I mean, clearly in Iraq we are 
perceived by many as an occupying force, and that leads to 
enormous problems. Are there no such concerns on the part of 
the people of Afghanistan about our presence there? I recognize 
it's a different kind of presence, but I'm curious about the 
perceptions if they're perceiving everyone as Americans.
    Ambassador Taylor. Because of the differences in troop 
levels and intensity of the troops that are on the ground, 
there is a much different perception. Again, if you have 
130,000 troops in a country--and the countries are comparable 
in size and population--there will be a perception of the 
soldiers there that will be different if you have 10,000, as we 
do in Afghanistan. And as General Jones has indicated, these 
small teams around the country, these Provincial Reconstruction 
Teams, as Senator Boxer indicated, we're talking about 80 
soldiers, in some cases, plus--and augmented by civilians. So 
this is not an occupying presence, this is not an overwhelming 
presence, by any means.
    When we went through--I joined several of these Provincial 
Reconstruction Team patrols in their travels through villages--
they were universally well received. Universally, you see the 
children out there waving, thumbs up, and crying out that 
little English that they've got; assuming, again, that it was 
American soldiers that were going through, that they were on 
there. This is the reception that we get.
    So there's not a misperception at all about our intent 
there. Again, they're concerned that we stay.
    Senator Feingold. I appreciate that answer. Let me ask you 
now--I understand the administration aims to train 10,000 
Afghan soldiers by June 2004, and then to train an additional 
10,800 per year thereafter. Do we have adequate personnel 
available to accommodate the accelerated ANA training schedule? 
When I consider what we're trying to do in Iraq, it seems like 
we have an awful lot of training to be doing right now. What 
kind of trainer-to-trainee ratio are we going to be able to 
talk about here in the Afghanistan situation?
    General Jones. Sir, the responsibility for training the 
Afghan National Army is essentially a U.S. responsibility right 
now. As NATO comes online and assists in the security, 
stability, and reconstruction, there's no doubt that NATO could 
also help in this regard. So I think where we are today is, the 
current strength of the ANA is about 5,700. We've got 2,100 in 
training. The goal is to get it up to 10,000 by mid-summer. And 
I think it sounds to me like things are on track. And General 
Abizaid and I talked about this briefly yesterday, and he's 
well satisfied with the efforts that are--and the assets that 
he has to do the required training.
    I would like to just emphasize that, should NATO get 
involved in this in a greater scale, I think there would be an 
appetite to also provide some assistance there, as well, which 
would accelerate the process.
    Senator Feingold. Thank you, general.
    Finally, Ambassador, I guess I want to get your reaction to 
how we're really defining success in Afghanistan today. And the 
reason I ask that is because it sometimes appears that we're 
pursuing a piecemeal approach to bolstering stability and the 
rule of law throughout the country, and I'm sometimes concerned 
that--are we setting our goals at ``good enough'' to, sort of, 
mask the real gaps between the resources and the needs?
    Ambassador Taylor. Senator, I think this is a very 
important question, and the answer that we need to agree, as a 
government, as a people, is that we will be there until--and in 
various forms--we will be in Afghanistan until there is an end 
state--not an end date, but an end state--that we see meets our 
national security needs.
    We are looking for an Afghanistan that is market oriented, 
that is democratically inclined, that has a stable government 
that is able to control its borders, as well as its interior, 
is able to control the drugs that we talked about, it's able to 
provide for the needs of its people, in terms of education, in 
terms of health. It's that stable, responsible government that 
will never again be a harbor for terrorists that we are 
committed to.
    That will take some time. It'll take some time for our 
military. It'll take a longer time for our reconstruction 
efforts. And it'll take a long time--we intend to be there for 
a long time, diplomatically and politically.
    So it is that kind of long-term commitment to an end state 
that serves our national interest that we need to be committed 
to, and it's a function of the people of the United States, the 
people of the Coalition and their parliaments that is important 
for that kind of commitment.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    We'll have another round among those who are still with us.
    Let me just start by simply mentioning that, as we said at 
the outset, the mission of this committee is oversight. The 
ongoing activities in Afghanistan have been in our oversight 
since September 11, 2001. I just made a note, as others have 
raised questions, that we once again pursued the status of 
women in the country. We observed where the Stinger missiles 
are. In previous times, we observed how the road-building is 
going, as well as access to the country. We studied whether 
Afghanistan has become a viable economic success, whether 
people as coming and going through the country, how the 
situation with the warlords is going. Likewise, we are 
concerned about the poppies and about training the police and 
the army in a responsible way.
    One thing that you have just mentioned in response to 
Senator Feingold, Mr. Taylor, is that staying-power issue. That 
often has been there in earlier hearings, with some doubt as to 
what the staying-power capacity of our country actually was. I 
can remember, in a response that was not meant to be just an 
estimate or a flip response, in some talk-show situation, 
indicating that probably, in both Iraq and Afghanistan, we were 
likely to be there at least 5 years. This was greeted with 
headline treatment, but not necessarily with approval. In 
essence, at that point a good many Americans felt that was 
simply too long. In those days, we did not really think about 
the implications, as you said, of a government that is not only 
stable, but successful, and that is doing all of these things 
against very daunting odds, historically, quite apart from the 
current situation.
    I have traced with our staff the fact that in the past year 
we have held dramatic hearings on Afghanistan, one involving 
President Karzai, himself. He sat at the same table where you 
are. This came about, in part, because the President had a 
mission to see our President. President Bush wanted to have a 
larger forum, and that was provided.
    In the course of that hearing, President Karzai was 
questioned by Senator Boxer about the status of women. 
President Karzai was also questioned by Senator Hagel about 
whether he was really asking for enough, and he encouraged him, 
when he would meet with President Bush, to ask for enough, in 
terms of the money, the forces, and what have you. Many felt 
that this was offensive to the President of Afghanistan. As a 
matter of fact, in press accounts later, there were general 
apologies for the brutalization of the President of Afghanistan 
by the committee. Yet when Senator Hagel and Senator Biden and 
I saw President Karzai at the World Economic Forum, near Amman, 
Jordan, in June, he seemed to be in a very good mood, pleased 
to see us again, despite his treatment in February before the 
committee. As a matter of fact, he outlined, with his Finance 
Minister, a remarkable 5-year economic plan, a pretty good 
prophecy of how the loya jirga meeting and the constitutional 
business would go, at a time when these were very imminent 
questions in our policy in Iraq. Many hoped that somehow a 5-
year policy of some sort could come there, in the economy, 
quite apart from the politics of the country. Furthermore, 
President Karzai demonstrated that he had a good number of 
people with him who shared his idealism and his competence, 
which is really very important.
    We appreciate this, and I cite all this because I started 
my question by asking, why should we be optimistic, given all 
the daunting circumstances that we have been listing today, and 
which we have listed previously? I think there are good reasons 
to point out that extraordinary progress has been made.
    I can't overemphasize the importance of General Jones being 
here today, as SACEUR, and the fact that NATO has made this 
commitment. Lord Robertson should be given tremendous credit 
for taking the out-of-area concept out of simply a conceptual 
phase. As both of you have said, on the ground, NATO must be 
successful. This is the archetype case, of whether, in fact, we 
can move beyond simply hunkering down in the borders of the 
countries that are constituent members, and actually move out 
into the world.
    I want to cite some thoughts that the foreign-policy 
writer, Robert Kagan, had in the New York Times this past 
weekend, in which he says, the importance for us--that is, the 
United States--of making the distinction that we are involved 
in Afghanistan, or Iraq or other situations, is not simply as a 
question of our own security, but, in fact, because we fight 
for the world, and that we always have done so, at least as a 
part of American foreign policy; the thought that there are 
broader considerations with regard to all of humanity. It is 
important, in this case, as a counterweight to current tensions 
with Europeans, who may say, you were overreaching, or, you are 
bound to your own security situation, in a unilateral way.
    In Afghanistan, NATO is operative, NATO is real, NATO has 
expanded. European/American cooperation has new avenues. Even 
if some European countries that were not able, for various 
reasons, to participate vigorously in Iraq have found it 
equally important to participate in Afghanistan, more power to 
them. There is an avenue here in which we are, in fact, working 
together in the world's interest, finding an interest here. 
That is important, leaving aside the benefit to Afghans, the 
importance to our own foreign policy and to our own alliances 
with NATO.
    For all these reasons, I am appreciative of your testimony 
today. I do not really have substantial additional questions. 
You have been asked about everything that you should be asked 
about, and you have offered, for the record, accurate responses 
to some inquiries that were very important and that may go 
beyond your immediate recollections, as they would members of 
this panel.
    Do either of you have any further comment about these 
thoughts? If so, I will entertain those, and then I'll proceed 
to Senator Hagel.
    General Jones. Mr. Chairman, the only thing I can do is 
echo your sentiments. I mentioned I've been privileged to serve 
for 37 years in uniform with the United States. I'm 
particularly proud of the fact that many of these missions have 
been overseas, where marines, soldiers, sailors, airmen, coast 
guardsmen, people in uniform, and people not in uniform, 
representing different agencies of our government and non-
governmental agencies have come together to show that the 
United States, after two horrific world wars, the very, very 
difficult war in Korea, the Vietnam experience, has emerged 
from the 20th century alive, strong, healthy, vibrant, and 
still mankind's best hope and best example for how people of 
all different types of backgrounds, ethnicity, race, religion, 
can come and live together in a peaceful society and be a 
society of great influence on the face of the Earth. I'm 
extraordinarily proud to be a part of this process, in my 37th 
year in uniform.
    Thank you for pointing out that very important mission.
    Ambassador Taylor. Mr. Chairman, I would just add that--two 
aspects of how the work in Afghanistan furthers our foreign 
policy. One is, the model that Afghanistan can become of a 
moderate Islamic democracy in that part of the world. I think 
this will have great effect if they can succeed, if we can help 
them succeed in that regard.
    And the second point you made is a very good one; that is, 
the international effort, the international community there in 
Afghanistan, is really pulling together. As General Jones 
indicated, the Americans are in the lead on training the army, 
but the French are running the Officer Training School, and the 
British are running the NCO Training Academy. The Americans, 
we're training and equipping the soldiers. Similarly, the 
Germans are in the lead on training the police. And the 
Americans are right there with them, extending that training 
out into these PRTs.
    So it is an international effort that does further our 
foreign policy, and it has specific goals, as well.
    The Chairman. Well, I thank you both.
    I'm compelled to add, after General Jones mentioned his 
37th year in uniform, that at an earlier period in your career, 
when I was chairman of the committee almost a generation ago, 
General Jones accompanied a senatorial party or two to Europe. 
His participation was very, very helpful in enhancing our 
understanding. This was while the cold war was still 
proceeding, and NATO was still evolving. We appreciated your 
leadership then, just as we do presently.
    We are delighted that both of you have honored us with your 
presence today.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Two questions. One, we have not heard anything this morning 
about Iran. I would very much appreciate each of your analysis 
regarding Iran's involvement/noninvolvement in Afghanistan. 
Have they been helpful? Have they complicated things? Where, 
over the last 12 months, has Iran played a role, if any?
    Ambassador Taylor. They've been helpful, and they've 
complicated things, both. That is, as several people have 
observed, there are two Irans. And, on the one hand, they have 
been contributing to the reconstruction, economic 
reconstruction. So the one part of Iran does recognize the 
importance of a stable neighbor on their border, and have 
recognized that they can contribute to that stability by 
helping on the economic-development side. They're building a 
road that hooks into the road that we're building. That is, 
they're building a road from the Iranian border to Herat. So, 
on the one hand, that part of Iran is being constructive.
    On the other hand, they are clearly supporting one of the 
Governors in Herat, who is not supporting the central 
government, who is not supporting President Karzai's 
government, and who gets assistance from, and probably 
encouragement from Iran, which is not helpful.
    So, Senator Hagel, it's both. It's both helpful and 
complicating.
    Senator Hagel. Thank you.
    General Jones.
    General Jones. Sir, I would defer to the Ambassador. I 
think that's an accurate portrayal. As NATO gets more and more 
involved in the PRTs and expanding out to the west and 
everything, I'm sure that we will have a fusion of opinions 
with regard to the surrounding neighbors and their influence. 
But I associate myself with the Ambassador's comments.
    Senator Hagel. Thank you. One additional question. The role 
of NGOs in Afghanistan, and the private organizations, PVOs, 
private voluntary organizations--this, Ambassador Taylor, is 
more addressed to you--are they playing an increased role? What 
kind of role? How critical is it, as we have heard the last 
couple of hours, on essentially getting down as to--General 
Jones' point is--into the villages and towns across Afghanistan 
so that the people understand we're there to help make a better 
life for them? Give me a assessment of the NGO/PVO role in 
Afghanistan.
    And, General Jones, if you have anything to offer, I would 
welcome your comments, as well.
    Thank you.
    Ambassador Taylor. Senator, the NGOs have been in 
Afghanistan for a long time. They were there when the Americans 
weren't. They have been through very difficult times. They've 
been there through the Taliban time, delivering services--
humanitarian services, health, education services--to the 
Afghan people. So they have been there. They've got a track 
record. They do things very well. They build schools, and they 
work with the communities to provide the teachers, the rest of 
the infrastructure that's necessary for those schools. Same 
thing on the clinics.
    So they have played--and the international NGOs, in 
particular--have played a major role, continue to play a major 
role. They are implementing many of the projects that the 
Americans and other international donors are funding. They 
have, again, the expertise and the history of working with the 
people that enable them to do that well.
    Another aspect of NGOs that's becoming clearer are the 
Afghan NGOs. And the Afghan non-governmental organizations are 
offering themselves, both to international NGOs, but also to 
international assistance providers, as implementors.
    The PRTs are able to go to local NGOs, Afghan NGOs, and 
hire them to build roads, hire them to build schools, hire them 
to dig wells. The PRT military folks and the civilian folks 
don't do it themselves; they will hire these local NGOs. And it 
sounds like they are becoming essentially local contractors. 
And so the Afghan NGO world is moving into a market, a private-
sector mode, which I think is very healthy. That's the 
development of a private sector that we're looking for.
    So both the international NGOs, who have been there through 
thick and thin, as well as this developing Afghan NGO sector is 
coming along well, making big contributions.
    Senator Hagel. Thank you.
    The Chairman. Well, thank you very much, Senator Hagel.
    We thank the witnesses.
    Senator Chafee, pardon me. Yes.
    Senator Chafee. Well, thank you, Mr. Chairman. I do have a 
quick couple of questions, if I could.
    The Chairman. Yes.
    Senator Chafee. Ambassador, could you describe what I 
understand is a tension between the Tajiks and the Pashtuns and 
how that's working out? From what I understand, the Tajiks, the 
Northern Alliance, they feel we're the people that kicked out 
the Taliban, ``We want more of a role in government.'' And 
could you describe how that's resolving itself?
    Ambassador Taylor. Yes, sir. And this is a particularly 
interesting time for that question. We saw, during the 
Constitutional Loya Jirga, that these ethnic questions and 
ethnic tensions, as you say, kind of became clearer. Again, as 
you say, the Northern Alliance came in, with the support of the 
Americans, and pushed Taliban and al-Qaeda out, in 2001. Most 
of the Taliban were Pashtun, the tribe in the south and 
southeast. Not all Pashtuns are Taliban, clearly. So that 
flavor, that ethnic flavor, colored the government that came 
into power with President Karzai in December, and then was 
established, was confirmed by the Emergency Loya Jirga, in 
2002.
    That Emergency Loya Jirga, in 2002, put together a cabinet 
under President Karzai, a Pashtun, but the cabinet had elements 
of the Tajiks, or the Northern Alliance. It was a coalition 
cabinet that had some Pashtuns; in particular, some Pashtuns, 
who had been out of the country, who had expertise in certain 
areas.
    Senator Lugar mentioned the Finance Minister, a very 
important member of the cabinet, who spent a lot of time at the 
World Bank during the time that the Communists and the Taliban 
were there. So he brought that expertise, a Pashtun.
    The tension comes, often, where the Tajiks, who also are 
very important members of the cabinet, argue that they stayed, 
they have been in the country, in Afghanistan, all the time, 
and some of the Pashtuns left, for reasons that we could 
certainly understand. There's that tension.
    Then you come to the Constitutional Loya Jirga, where the 
surprise was that the Pashtuns that we had thought were 
alienated--the Pashtuns were not supporting the central 
government, weren't supporting President Karzai--they came 
together. The Pashtuns, who are at least a plurality in the 
country--maybe a majority, we don't know, they haven't done a 
census in a long time, but certainly are the single largest 
ethnic group in Afghanistan--they came together, the delegates. 
The Pashtun delegates to the Constitutional Loya Jirga, in 
December and early January, came together and exerted 
themselves in favor of a Presidential system that presumably 
President Karzai will run for and, if the voters of Afghanistan 
agree, will become the elected President, a Pashtun President.
    So the concern, of the Tajiks was, hey, we have been the 
allies. We have--we were the Northern Alliance. We kicked the 
Taliban and al-Qaeda out, and there's some nervousness about 
this move toward a stronger role, a more cohesive role of the 
Pashtuns.
    There was one particular element in the Constitutional Loya 
Jirga where this came up, and it was on language. There was a 
real concern about--there was general agreement that there 
would be two official languages--Dari, spoken in the north, and 
Pashto, spoken in the south. But then there were concerns, from 
the Uzbeks and other Turkic-speaking minorities, about what the 
role of those languages would have. And the Pashtuns, again, 
who had the majority in the Constitutional Loya Jirga, were 
ready to vote that, no, we don't need additional official 
languages, and we've got the votes, and we can push that 
through.
    In the end, a compromise came up, where they didn't need to 
vote. The Pashtuns didn't need to assert that authority. They 
came up with a compromise that would allow a third language--
Uzbek, for example--to be an official language in the area 
where it is the majority language.
    Now, this, again--going back to something that Senator 
Lugar mentioned earlier, a model for other countries, this 
could be a model of tolerance, of at least ethnic tolerance, 
that they were able come up to. This was not pretty. The 
tensions were clearly there in the loya jirga, but they were 
able to come up with compromises that allowed them to move 
forward and, in the end, pull together. They all, 502 
delegates, stood up at the end of the Constitutional Loya Jirga 
and approved this Constitution, even though there had been some 
very difficult, very tense times during the loya jirga while 
these ethnic tensions kind of played out.
    Senator Chafee. So, from the outside, it seems, as you 
described it, the Pashtuns gave quite a bit. Did they get 
something behind the scenes?
    Ambassador Taylor. They got something in front of the 
scenes, in the front stage. That is, they got a strong 
Presidential system, which they are looking for, which almost 
certainly benefits the entire country. And what Afghanistan 
doesn't need at this point--and I think, in the end, all the 
delegates recognize it--Afghanistan doesn't need competing 
power centers in the executive branch. And there have been 
suggestions that there be--in addition to the President, there 
be a Prime Minister. And, in the end, all of the ethnic groups 
agreed that--better to have a single President elected by the 
people, rather than have competing powers.
    And so they, the Pashtuns, did, indeed--they made some 
compromises. The Tajiks, the Hazara, the other minorities made 
compromises. And, in the end, they came up with a Constitution 
that they all could agree on.
    Senator Chafee. All right, thank you. I have one more 
question. This is a hearing on stabilization and 
reconstruction, and on the ring road. I know there's been some 
emphasis and talk about the ring road. And I saw a cartoon 
where the Martian rover lands, and the first pictures to come 
back, and up at command central, say, ``Whoops, we landed in 
Afghanistan,'' and it's really on Mars. So it's some indication 
of the terrain that's there, and the difficulty of building 
this ring road. How are we doing on it?
    Ambassador Taylor. Senator, it is only a little bit of a 
joke that it looked like Mars. The road from Kabul to Kandahar 
took, oh, on a good day, without any major breakdowns, which 
happen often, 15-16 hours in a car, and 2 days in a big truck, 
while the road was so bad. I traveled that road several times. 
It was very difficult. The road's terrible. The traffic--even 
though the traffic is bad--even though the road's bad, the 
traffic is there, and the big trucks, they pick the side of the 
road that they want to drive on. So if they were on the other 
side, then the smaller traffic got out of the way to the left 
side. This is now a road that you can drive from Kabul to 
Kandahar in 5 hours, so they've cut it down dramatically.
    The other significant element here is that this road from 
Kabul to Kandahar goes right through the Pashtun belt, it goes 
right through the area that kind of parallels the Pakistan 
border, where the problems are that General Jones has mentioned 
and other people have talked about today. And there were 
problems, there were security problems. There were people 
killed. There were Afghan guards killed. There were engineers 
who were kidnaped and held for ransom by the Taliban. There 
were negotiations with the local Governors on finally setting 
them free. Right along that road, through Ghazni, was where the 
French woman, who worked for UNHCR, a humanitarian organization 
in the United Nations, was killed, point blank.
    Senator Chafee. You mentioned you've traveled it--prior to 
the construction being complete, or after?
    Ambassador Taylor. Prior. One of my next trips, I intend to 
drive that road, as does President Karzai, more importantly. He 
wants to drive that Kabul-to-Kandahar road as a demonstration 
that Kabul, that many Pashtuns--and back to your first 
question--many Pashtuns think of Kabul as not their capital. 
They think of it as, kind of, in the northern part. It's not 
their home. Their home, they think is in Kandahar. And this 
road has enabled Pashtuns to go easily to this other city, and 
that is bringing it together.
    Senator Chafee. And are we on schedule to--that's, what, 
about a--not even a third of what the----
    Ambassador Taylor. It's a quarter. It's a quarter--it's 
about--a quadrant of the road, and we are now making progress 
on the next quarter, from Kandahar up to Herat. Other nations 
are working on the road from Kabul up to Mazar. And the ADP is 
working on the final quadrant, down to Herat again.
    Senator Chafee. All right, very good.
    The Chairman. Let me just followup Senator Chafee's 
thought. There has been some criticism in the press as to the 
quality of the road-building. Is it the kind of road that is 
going to last for awhile? Do you have any comments before you 
take your first drive on there?
    Ambassador Taylor. I do, Senator. Mr. Chairman, the road 
from Kabul to Kandahar that was completed, well ahead of 
schedule and to great acclaim, by the Constitutional Loya 
Jirga, by the way--many of the delegates went out for the 
ribbon-cutting, you may have seen--that road is good for--it's 
a thick layer of asphalt, and it's good for 3, 4, 5 years. It 
is also true, however, that we're going to go back--USAID is 
going to go back, with two more layers, to make that a 30-year 
road or a 50-year road.
    The Chairman. I see.
    Ambassador Taylor. It will be there for a long time. We can 
be driving this road for a long time.
    The Chairman. So that's the--either the understanding or 
the misunderstanding. The press accounts stated that something 
had been built, like some of our streets in urban areas, with 
asphalt, and then that chuck holes would occur and so forth, 
but you thought of that.
    Ambassador Taylor. Yes.
    The Chairman. So you're going back, and you're going to 
make a 30-year road out of it.
    Ambassador Taylor. Yes, sir.
    The Chairman. Senator Hagel, do you have any further 
questions?
    Senator Hagel. No thank you, Mr. Chairman.
    The Chairman. We thank you, again, and the hearing is 
adjourned.
    [Whereupon, at 11:55 a.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
